OIG Audit Report GR-30-98-005
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Police Executive Research Forum
Technical Assistance for Police Responding to Violence Against Women
Cooperative Agreement No. 97-WT-VX-K002
 
GR-30-98-005
August 27, 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of cooperative agreement number 97-WT-VX-K002 (hereinafter "grant")
awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), to the
Police Executive Research Forum (Forum). The Forum received an award of $361,530 to
support the technical assistance needs of the Services, Training, Officers and Prosecution
(STOP) Violence Against Women subgrantees.
Our audit concentrated on, but was not limited to, the award period of October 1, 1996
through April 30, 1998. We reviewed transactions to determine whether costs were
allowable, reasonable, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the grant. We also reviewed requests for reimbursement, budget
deviations, and the accuracy and timeliness of financial and progress reports.
In brief, our audit determined that the Forum implemented the activities planned to
accomplish the objective of the grant; but: 


Charged unallowable and unallocable costs totaling $23,618 to the grant, which consisted
    of food and beverage costs, excessive lodging costs, unsupported contractual service, and
    unauthorized preagreement costs; and 


Did not properly prepare and timely submit financial and progress reports as required.

These items are discussed in detail in the FINDINGS AND RECOMMENDATIONS section of the
report. Our SCOPE AND METHODOLOGY appear in Appendix II.
#####